CONTRATO DE CUENTA DE TARJETA DE CRÉDITO
Términos Importantes de su Cuenta de Tarjeta de Crédito
Tasas de Interés y Cargos por Intereses
Tasa Porcentual Anual (APR, por sus
siglas en inglés) para Compras
Cómo evitar pagar intereses sobre
Su fecha de vencimiento es al menos 23 días después del cierre de cada ciclo de facturación. No
compras
le cobraremos intereses sobre las compras si usted paga la totalidad de su saldo cada mes a más
tardar en la fecha de vencimiento.
Cargo Mínimo por Intereses
Si se le cobran intereses, el cargo no será inferior a $1.00.
Para obtener sugerencias sobre
Para obtener más información acerca de los factores que se deben tomar en consideración
Tarjetas de Crédito de la Oficina para la al solicitar o usar una tarjeta de crédito, visite el sitio Web de la Oficina para la Protección
Protección Financiera del Consumidor Financiera del Consumidor en https://www.consumerfinance.gov/learnmore (en inglés).

28.99%

Cargos
Cuota Anual
Ninguna
Cargos por Penalidad
• Pago Atrasado
Hasta $40.00
• Pago Devuelto
Hasta $40.00
Cómo calcularemos su saldo: Usamos un método denominado “saldo diario promedio (que incluye nuevas compras)”. Consulte su
Contrato para obtener más detalles.
Derechos en relación con la facturación: Puede encontrar información sobre sus derechos para disputar transacciones y sobre cómo
ejercer esos derechos en su Contrato.
Cómo calcularemos sus cargos por penalidad: El cargo será el monto que resulte menor entre el Pago Mínimo Adeudado o $29.00. Para
cualquier evento posterior que ocurra en el transcurso de un período ininterrumpido de seis ciclos de facturación, el cargo será el monto
que resulte menor entre el Pago Mínimo Adeudado o $40.00.
La información relacionada con el costo del crédito descrito en este Contrato es correcta al mes de enero de 2021. Esta información puede
haber cambiado después de esa fecha. Para obtener información acerca de los posibles cambios, llámenos al 1-800-459-8451 (marque 9
para recibir atención en español).
ACUERDO DE ARBITRAJE
Arbitraje Obligatorio. Usted y Wells Fargo Bank, N.A. (el “Banco”), incluidos los cesionarios, agentes, empleados, funcionarios, directores, accionistas, compañías matrices,
subsidiarias, afiliadas, predecesores y sucesores del Banco, acuerdan que si surge una Disputa (según se define a continuación) entre usted y el Banco, a solicitud de usted o del
Banco, la Disputa se resolverá mediante el siguiente proceso de arbitraje. No obstante, el Banco no iniciará un arbitraje para cobrar una deuda de consumidores, pero se reserva
el derecho de llevar a arbitraje todas las otras disputas con sus clientes consumidores. Una “Disputa” es cualquier desacuerdo entre usted y el Banco que no haya sido resuelto.
Incluye todo desacuerdo que se relacione de alguna forma con su Cuenta de Tarjeta de Crédito (la “Cuenta”) o servicios relacionados. Incluye reclamos basados en promesas o
contratos incumplidos, actos ilícitos u otras acciones ilegítimas. Además, incluye los reclamos establecidos por ley, por el derecho común y por el derecho de equidad. “Disputas”
incluye los desacuerdos con respecto al significado o la aplicación de este Acuerdo de Arbitraje. Este Acuerdo de Arbitraje continuará en vigencia después del pago o cierre
de su Cuenta. Usted entiende y acuerda que tanto usted como el banco renuncian al derecho a un juicio por jurado o a un juicio ante un juez en un tribunal público.
Como única excepción a este Acuerdo de Arbitraje, usted y el Banco conservan el derecho de presentar ante un tribunal de reclamos de menor cuantía toda Disputa que esté
comprendida dentro de la jurisdicción de dicho tribunal. Si usted o el Banco no se someten al arbitraje obligatorio después de formulada una demanda legítima, la parte que
incumpla será responsable de todos los costos y gastos incurridos por la otra parte al hacer valer el arbitraje.
Procedimiento de arbitraje; divisibilidad. Usted o el Banco pueden someter, en cualquier momento, una Disputa a arbitraje obligatorio, independientemente de que se haya
presentado o no una demanda o iniciado otro procedimiento anteriormente. Ni usted ni el Banco tienen derecho a unir o consolidar disputas a favor o en contra de otros
en ningún arbitraje, ni de incluir en ningún arbitraje disputa alguna formulada en calidad de representante o miembro de una acción colectiva, ni de actuar en calidad
de fiscal general privado. Cada arbitraje, incluida la selección del (de los) árbitro(s), será administrado por la Asociación Americana de Arbitraje (AAA), u otro administrador
que usted y el Banco escojan de mutuo acuerdo (se hará referencia de aquí en adelante a la AAA o al administrador que se escoja de mutuo acuerdo como el “Administrador del
Arbitraje”), de acuerdo con las Reglas de Arbitraje Comercial y los Procedimientos Suplementarios para Disputas Relacionadas con el Consumidor (las “Reglas de la AAA”). En la
medida en que exista alguna discrepancia entre las Reglas de la AAA y este Acuerdo de Arbitraje, este Acuerdo de Arbitraje prevalecerá. El (los) árbitro(s) debe(n) ser miembro(s)
del colegio de abogados del estado donde se lleve a cabo el arbitraje, con especialización en el derecho sustantivo pertinente al tema de la Disputa. Ningún árbitro u otra parte
de un procedimiento de arbitraje pueden divulgar la existencia, el contenido ni los resultados de dicho proceso, excepto por las divulgaciones de información de una parte que
sean requeridas en el curso ordinario de sus operaciones comerciales, o de conformidad con la ley o los reglamentos aplicables. Usted y el Banco (las “Partes”) acuerdan que en
esta relación: (1) Las Partes están participando en transacciones que involucran el comercio interestatal; y (2) este Acuerdo de Arbitraje y cualquier arbitraje resultante se regirán
por las disposiciones de la Federal Arbitration Act (Ley Federal de Arbitraje, Título 9 del Código de los Estados Unidos) y, en la medida en que cualquier disposición de esa Ley
sea inaplicable, no ejecutable o no válida, por las leyes del estado de Dakota del Sur. Si se determina que alguna disposición de este Acuerdo de Arbitraje que trata sobre una
demanda colectiva, arbitrajes colectivos, acciones presentadas por un fiscal general privado, otra acción representativa, unión o consolidación es ilegal o no ejecutable, dicha
disposición no válida no podrá ser separada del conjunto y este Acuerdo de Arbitraje será no ejecutable en su totalidad.
Conservación de derechos. Este Acuerdo de Arbitraje no prohíbe a las Partes el ejercicio de cualquier derecho legítimo o el uso de cualquier otro recurso disponible para
conservar, ejecutar u obtener posesión de bienes raíces o bienes muebles, ejercer recursos de autoayuda, incluidos los derechos de compensación y recuperación, u obtener
recursos provisionales o auxiliares, tales como interdictos, incautación, retención jurídica de bienes o el nombramiento de un síndico por parte de un tribunal con jurisdicción
competente. Toda prescripción aplicable a una Disputa se aplica a todo arbitraje entre las Partes. Las disposiciones de este Acuerdo de Arbitraje continuarán en vigencia luego
de la terminación, la modificación o el vencimiento de la Cuenta o de toda otra relación entre usted y el Banco.
Cargos y gastos del arbitraje. Los cargos del arbitraje se determinarán por las reglas o los procedimientos del Administrador del Arbitraje, a menos que estén limitados por
las leyes aplicables. Consulte con el Administrador del Arbitraje para determinar los cargos aplicables a todo arbitraje que usted pueda presentar. Si las leyes aplicables del
estado en el cual usted abrió su Cuenta limitan el monto de los cargos y gastos que usted deba pagar, entonces ninguna asignación de cargos y gastos que se le haga a usted
podrá exceder esa limitación. Salvo que esto sea inconsistente con las leyes aplicables, cada uno de nosotros será responsable de los gastos por honorarios de nuestro propio
abogado, peritos y testigos, independientemente de quién de nosotros prevalezca en el arbitraje.
La Military Lending Act (Ley de Préstamos para Militares). El Acuerdo de Arbitraje no se aplica en su caso si usted está cubierto por la Ley de Préstamos para Militares ni las
disposiciones de renuncia a los derechos de presentar recursos legales en virtud de cualquier ley estatal o federal en la medida requerida por la Ley de Préstamos para Militares.
Consulte el Aviso sobre la Ley de Préstamos para Militares en el Acuerdo para obtener más información.
1 de 5

6102OA-S PLFX (0121)

CONTRATO DE CUENTA DE TARJETA DE CRÉDITO
Aviso a los titulares de tarjeta de California
A nuestros clientes de California que hayan conversado sobre los términos y
condiciones de la tarjeta de crédito con nosotros o con el Comercio en español, chino,
coreano, vietnamita o tagalo:
Lean la sección titulada CERTIFICACIÓN DE INTÉRPRETE antes de usar su Cuenta.
Read the section titled INTERPRETER CERTIFICATION before you use your Account.
在使用您的帳戶以前，請閱讀題為「傳譯員確認書」一節。
귀하의 계좌를 이용하기 전에 먼저 통역사 인증이라는 제목의 섹션을 읽으십시오
Đọc mục tựa đề CHỨNG NHẬN THÔNG DỊCH VIÊN trước khi quý vị sử dụng Trương
Mục của mình.
Basahin ang seksyon na pinamagatang SERTIPIKO NG TAGAPAGSALING-WIKA bago
ninyo gamitin ang inyong Account.
Estos términos y condiciones se aplican a toda su Cuenta.
Información sobre su Cuenta
CONTRATO. Este Contrato de Tarjeta de Crédito (el “Contrato”) cubre el uso de su Cuenta
de Tarjeta de Crédito (la “Cuenta”) con nosotros. Incluye los Términos Importantes de
su Cuenta de Tarjeta de Crédito. Su firma en su solicitud u oferta para esta Cuenta,
incluidas, a modo de ejemplo, cualquier firma electrónica o digital, así como su firma en
Comprobantes de Venta o cualquier documento relacionado con la Cuenta, representa
su firma en este Contrato. Usted acepta los términos de este Contrato al abrir o usar
su Cuenta. Si tiene una Cuenta conjunta, cada uno de ustedes está obligado por este
Contrato. Lea este Contrato detenidamente y guárdelo para futura referencia.
PARTES DE ESTE CONTRATO. Este Contrato se celebra entre Wells Fargo Bank, N.A., 101
North Phillips Avenue, Sioux Falls, SD 57104 (“nosotros”, “nos” y “nuestro[a]”) y cada uno
de los titulares de cuenta, ya sea el titular principal o el titular conjunto (“usted” y “su”).
CÓMO COMUNICARSE CON NOSOTROS. A menos que se indique lo contrario en este
Contrato, usted puede comunicarse con nosotros llamando al número de teléfono o
escribiendo a la dirección que aparecen en su estado de cuenta. Para obtener más
información, visítenos por Internet en retailservices.wellsfargo.com/sp/customer/
index.html.
DEFINICIONES.
Ciclo de Facturación
Intervalo entre estados de cuenta. Cada estado de cuenta
muestra una fecha de cierre. La fecha de cierre del estado
de cuenta es el último día del Ciclo de Facturación para ese
estado de cuenta.
Tarjeta

La tarjeta de crédito que podemos emitir para usar su
Cuenta.

Dispositivo de Acceso
al Crédito

Un dispositivo, aparte de su Tarjeta, que le permitimos usar
para tener acceso al crédito de su Cuenta.

Términos Importantes Un resumen de las Tasas Porcentuales Anuales (“APR”), los
cargos y otra información importante.
de su Cuenta de
Tarjeta de Crédito
Comercio

Todo comercio que tenga un contrato de comercio con
nosotros para participar en este programa de tarjeta de
crédito.

Nuevo Saldo

El Saldo Pendiente a la fecha de cierre del estado de cuenta.

Saldo Pendiente

La suma de todos los montos impagos, incluidas compras,
intereses, cargos y cualquier otro monto que usted pueda
adeudarnos.

Dirección de Pago

La dirección donde usted envía su pago por correo. Se
encuentra en su Talonario de Pago.

Fecha de Vencimiento
del Pago

La fecha en la que vence el Pago Mínimo Adeudado.
Aparece en su estado de cuenta.

Talonario de Pago

La parte de su estado de cuenta que debe enviarnos con
su pago.

Comprobante de
Venta

Todo documento que describa los términos de una compra
en la Cuenta.

PERSPECTIVA GENERAL DE LA CUENTA. Su Cuenta puede dividirse en dos o más
saldos. Estos saldos también se denominan subcuentas. Pueden aplicarse diferentes
términos a diferentes saldos.
USO DE SU CUENTA. Usted puede usar su Cuenta para realizar compras. Las compras
formarán parte del saldo regular a menos que un Comprobante de Venta muestre que
se aplican términos especiales. Si se aplican términos especiales, la compra formará
parte de un saldo de términos especiales. Los términos especiales se describen más
adelante en este Contrato (véase la sección Términos Especiales).
Usted promete que su Cuenta se utilizará únicamente con fines legales personales,
familiares o de unidad familiar. Además, nos reservamos el derecho de rechazar
transacciones o autorizaciones de comercios aparentemente involucrados en el
negocio de apuestas por Internet, o que se identifiquen por medio del registro de
transacciones de la Tarjeta o que participen de otro modo en dicho negocio. No somos
responsables si alguien no le permite usar su Cuenta.

PROMESA DE PAGO. Cuando usted utiliza su Cuenta o le permite a otra persona
utilizarla, usted promete pagar el monto total de la compra, como así también los
intereses, cargos u otros montos que pueda adeudarnos. Podremos limitar o cerrar
su Cuenta, pero los términos y condiciones de este Contrato se aplicarán hasta que la
Cuenta se haya pagado por completo.
LÍMITE DE CRÉDITO. Asignaremos un Límite de Crédito a su Cuenta. Un Límite de
Crédito es el monto de crédito que le ofreceremos en su Cuenta. Su Límite de Crédito se
proporciona con su Tarjeta y en cada estado de cuenta. Usted promete usar su Cuenta
solamente hasta el Límite de Crédito. Si usted supera su Límite de Crédito, podríamos
autorizar la transacción sin aumentar su Límite de Crédito. Si usted supera su Límite
de Crédito, seguirá siendo responsable de todos los montos pagaderos en virtud de
este Contrato. Nosotros podemos ajustar su Límite de Crédito en cualquier momento.
DISPOSITIVO DE ACCESO AL CRÉDITO. Es posible que le proporcionemos (un)
Dispositivo(s) de Acceso al Crédito para que tenga acceso a su Cuenta. Los términos y
condiciones sobre intereses y cargos relacionados le serán comunicados cuando reciba
el (los) Dispositivo(s) de Acceso al Crédito.
Cargos e intereses
CARGOS. Usted acuerda pagar los siguientes cargos. Encontrará los montos de los
cargos en los Términos Importantes de Su Cuenta de Tarjeta de Crédito. Estos cargos
se cobrarán a su saldo regular, a menos que se especifique lo contrario a continuación.
• Cargo por Pago Atrasado. Se puede cobrar este cargo cada vez que no recibamos el
Pago Mínimo Adeudado a más tardar en la Fecha de Vencimiento del Pago.
• Cargo por Pago Devuelto. Este cargo se puede cobrar cuando un pago es devuelto
por falta de fondos por primera vez o si es devuelto sin pagar.
TASAS DE INTERÉS. Utilizamos las tasas periódicas diarias y sus Tasas APR
correspondientes para calcular el interés sobre los saldos en su Cuenta. La tasa periódica
diaria es del 0.07942%, que se calcula dividiendo la Tasa APR por 365.
CUÁNDO COBRAMOS INTERESES. A menos que se especifique lo contrario a
continuación, comenzamos a cobrar intereses sobre una compra o un cargo por
intereses en la fecha en que la compra o el cargo por intereses se registren en su
Cuenta. Comenzamos a cobrar intereses sobre un cargo el primer día del Ciclo de
Facturación que sigue al Ciclo de Facturación en el que el cargo se registre en su Cuenta.
Sin embargo, si se registra un cargo por pago atrasado en su Cuenta en el Ciclo de
Facturación actual, pero se relaciona con un pago atrasado del Ciclo de Facturación
anterior, comenzaremos a cobrar intereses sobre el cargo el primer día del Ciclo de
Facturación actual.
CÓMO EVITAR PAGAR INTERESES SOBRE LAS COMPRAS. A menos que se describa
de otra forma en la sección Términos Especiales de Interés más adelante, usted puede
evitar los intereses en cualquier parte del saldo por una compra que aparezca en su
estado de cuenta actual que usted pague a más tardar en la Fecha de Vencimiento del
Pago si el saldo que aparece en su estado de cuenta anterior era cero o se pagó por
completo a más tardar en la Fecha de Vencimiento del Pago.
CÓMO CALCULAMOS LOS INTERESES: MÉTODO DEL SALDO DIARIO PROMEDIO
(INCLUIDAS COMPRAS NUEVAS). El cargo total por intereses es la suma de los cargos
por intereses (excluidos los cargos por intereses diferidos) para cada tipo de saldo en
su Cuenta (p. ej., regular, cada saldo con términos especiales). Calculamos el cargo por
intereses para cada tipo de saldo en su Cuenta aplicando la tasa periódica diaria al saldo
diario promedio (“ADB”, por sus siglas en inglés). Luego, multiplicamos este monto por
la cantidad de días del Ciclo de Facturación.
Cargo por intereses = tasa periódica diaria x ADB x cantidad de días del Ciclo de
Facturación.
Los ADB para cada tipo de saldo se calculan por separado, comenzando con el saldo
inicial el primer día de cada Ciclo de Facturación. El saldo inicial el primer día del Ciclo
de Facturación incluye lo siguiente:
• El saldo final del Ciclo de Facturación anterior, que incluye todo cargo impago
registrado en su cuenta en el Ciclo de Facturación anterior.
• Todo cargo por pago atrasado registrado en el Ciclo de Facturación actual que se
relacione con un pago atrasado en el Ciclo de Facturación anterior.
Para obtener el ADB para cada tipo de saldo, tomamos el saldo inicial de cada día y
le sumamos todas las compras nuevas. A excepción del primer día de cada Ciclo de
Facturación, sumamos un interés igual al saldo del día anterior multiplicado por la
tasa periódica diaria. (Esto quiere decir que el interés se capitaliza diariamente). Luego,
restamos todo pago o crédito. Esto nos da el saldo diario. Cualquier saldo diario que sea
un saldo de crédito se tratará como saldo en cero. Después sumamos todos los saldos
diarios para el Ciclo de Facturación. Dividimos este monto por la cantidad de días del
Ciclo de Facturación. Esto nos da el ADB.
ADB = suma de los saldos diarios ÷ la cantidad de días del Ciclo de Facturación.
CARGO MÍNIMO POR INTERESES. Si se le cobran intereses en un Ciclo de Facturación,
el cargo no será inferior a $1.00.
Pagos
PAGO MÍNIMO ADEUDADO. Usted promete pagar el Pago Mínimo Adeudado a más
tardar en la Fecha de Vencimiento del Pago. El Pago Mínimo Adeudado es la suma de:
• Todo monto atrasado; más
• El pago para los Términos Regulares de Pago (véase más adelante Términos Regulares
de Pago); más

2 de 5

6102OA-S PLFX (0121)

En general, un usuario autorizado no está obligado en relación con esta Cuenta,
ni es responsable de ningún Saldo Pendiente ni de ningún otro cargo que usted o
cualquier otro usuario autorizado realicen. El privilegio de cada usuario autorizado
finaliza automáticamente en el momento del fallecimiento de todos los titulares de
cuenta. Si alguna persona usa la Tarjeta, dicho uso indica el acuerdo de esa persona
de pagarnos y nosotros podríamos, a nuestro criterio, intentar cobrarle a la persona
el pago de cualquier Saldo Pendiente o de cualquier otro cargo que dicha persona
autorice. Usted acuerda notificarle a cada usuario autorizado que está sujeto a todas
las secciones aplicables de este Contrato.
CÓMO NOS COMUNICAMOS CON USTED. Al proporcionarnos cualquier número
de teléfono, usted otorga expresamente permiso para que nos comuniquemos con
usted a ese número en relación con todas sus cuentas de Wells Fargo. Usted da su
consentimiento para permitir que nos comuniquemos con sus proveedores de servicio
telefónico anteriores, actuales y futuros a fin de verificar la información que usted ha
proporcionado, comparándola con los registros de dichos proveedores. Usted acuerda
que sus proveedores de servicio telefónico podrán verificar cualquier número de
teléfono que usted haya proporcionado, comparándolo con el nombre, la dirección
y el estatus que figuren en los registros de dichos proveedores. Para que podamos
brindarle servicios a su Cuenta o cobrar cualquier monto que pueda adeudar, usted
acuerda que podremos comunicarnos con usted usando cualquier información de
contacto relacionada con su Cuenta, incluido cualquier número (i) que usted nos haya
proporcionado, (ii) desde el que nos haya llamado o (iii) que hayamos obtenido y que
consideremos razonablemente que podemos utilizar para comunicarnos con usted.
Podremos utilizar cualquier medio para comunicarnos con usted. Esto puede incluir
el contacto por parte de compañías que trabajan en nombre nuestro para brindarles
servicios a sus cuentas. Esto puede incluir dispositivos de discado automatizado,
mensajes pregrabados o de voz artificial, correo postal, correo electrónico, mensajes
de texto y llamadas a su teléfono móvil, dispositivo inalámbrico o similar, o mediante
el servicio de Voz sobre Protocolo de Internet (VolP), o cualquier otra tecnología de
transmisión de datos o de voz. Usted es responsable de todo cargo del proveedor de
servicio que se genere como resultado de que nos comuniquemos con usted. Usted
acuerda notificarnos de inmediato si cambia la información de contacto que nos
proporciona. Esto incluye su nombre, dirección postal, dirección (direcciones) de correo
electrónico o número(s) de teléfono. Si tiene una cuenta conjunta, un aviso a uno de
ustedes se considerará un aviso enviado a los dos.
MONITOREO TELEFÓNICO. Podremos monitorear y grabar sus llamadas telefónicas
con nosotros.
TARJETAS PERDIDAS O ROBADAS Y RESPONSABILIDAD POR USO NO
AUTORIZADO. Usted acuerda notificarnos inmediatamente si pierde o le roban su
Tarjeta, o si cree que están usando su Cuenta sin su permiso. Puede comunicarse con
nosotros llamando al 1-800-459-8451 (marque 9 para recibir atención en español)
o escribiendo a P.O. Box 10347, Des Moines, IA 50306. Usted acuerda ayudarnos
en nuestra investigación del asunto. Si lo hace, no será responsable por el uso no
autorizado de su Cuenta.
INCUMPLIMIENTO. Su Cuenta estará en situación de incumplimiento si se produce
lo siguiente:
• No efectúa el Pago Mínimo Adeudado a más tardar en la Fecha de Vencimiento del
Pago.
• El pago es devuelto por falta de fondos.
• Usted viola los términos y condiciones de este Contrato.
• Usted hizo una declaración falsa en su solicitud.
• Ha presentado una declaración de quiebra.
Si esta es una Cuenta conjunta, el incumplimiento por parte de uno de ustedes se
considerará incumplimiento por parte de todos ustedes. Si su Cuenta está en situación
de incumplimiento, nuestros derechos incluyen, a modo de ejemplo, negarnos a
autorizar otras transacciones, cerrar su Cuenta y requerir el pago inmediato de su Saldo
Pendiente. Si su Cuenta está en situación de incumplimiento, usted acuerda, además,
pagar nuestros costos de cobranza, honorarios de abogado y costas judiciales.
LEY QUE RIGE. La ley federal y las leyes de Dakota del Sur rigen este Contrato y su
Cuenta.
CAMBIO EN LOS TÉRMINOS Y CONDICIONES. Podemos cambiar este Contrato
en cualquier momento. Estos cambios se pueden aplicar a saldos existentes y
futuros. Le daremos aviso por escrito con antelación del (de los) cambio(s) y
derecho a rechazar el (los) cambio(s), si la ley lo exige. Podemos exigirle que cierre
su Cuenta o tomar otras medidas si usted rechaza los cambios.
CÓMO HACER VALER ESTE CONTRATO. Podríamos renunciar a la ejecución de
cualquiera de nuestros derechos o demorar dicha ejecución, sin perderlos. Podemos
renunciar a la ejecución de un derecho contra uno de ustedes o demorar dicha
ejecución, sin exonerar al otro.
SEPARACIÓN DE DISPOSICIONES ILEGALES. Si se determina que alguna de las
disposiciones de este Contrato es ilegal, el resto del Contrato permanecerá vigente y la
disposición ilegal se considerará modificada para cumplir con lo establecido por la ley.
INTERCAMBIO DE INFORMACIÓN. Usted nos autoriza a compartir su información
personal y/o de la Cuenta con compañías no afiliadas. Las compañías no afiliadas
incluyen Comercios, sus afiliadas, sus proveedores de servicios y los patrocinadores
3 de 5
6102OA-S PLFX (0121)

• El (los) pago(s) de todo saldo con Pago Total/”Pagos Equivalentes” o Pagos
Personalizados (véase más adelante Términos Especiales de Pago).
Usted podrá pagar en cualquier momento, en forma total o parcial, el Saldo Pendiente
sin que se cobre ningún cargo adicional por pago por adelantado. Si usted paga más
que el Pago Mínimo Adeudado, pero menos que el Saldo Pendiente, todavía tiene que
pagar el Pago Mínimo Adeudado en el próximo Ciclo de Facturación.
TÉRMINOS REGULARES DE PAGO. Todos los saldos tendrán Términos Regulares
de Pago, a menos que el Comprobante de Venta muestre que se aplica un Pago
Total/“Pagos Equivalentes” o Pagos Personalizados. Combinamos los saldos con
Términos Regulares de Pago (el “Saldo Combinado”) para calcular el pago de estos
saldos. Se calcula un nuevo Saldo Combinado en la fecha de cierre del primer estado
de cuenta después de que se establezca un saldo con Términos Regulares de Pago. El
Saldo Combinado no cambia a menos que los saldos con Términos Regulares de Pago
aumenten por encima del Saldo Combinado actual.
El pago de saldos con los Términos Regulares de Pago será la suma que resulte mayor
entre:
• $40.00 (o la suma de saldos con Términos Regulares de Pago, si es menos de $40.00);
o
• 3.5% del Saldo Combinado; o
• La suma de los cargos por intereses para los saldos con Términos Regulares de Pago,
cargos aplicados durante el Ciclo de Facturación actual y el 1% del Saldo Combinado.
INSTRUCCIONES DE PAGO. Siga estas instrucciones cuando efectúe un pago:
• Efectúe su pago en dólares estadounidenses, pero no envíe efectivo.
• Si usted efectúa un pago por correo, incluya el Talón de Pago con su pago. Use el sobre
que se incluye con su estado de cuenta para enviar por correo ambos documentos a
la Dirección de pago. Los pagos recibidos a más tardar a las 5:00 p.m. hora local en la
Dirección de pago se acreditarán en la fecha en que se reciban. Los pagos recibidos
después de la hora de corte de las 5:00 p.m. se acreditarán al día siguiente. Cuando
proporcione un cheque como forma de pago, usted nos autoriza a usar la información
de su cheque para hacer una única transferencia electrónica de fondos de su cuenta
o para procesar el pago como una transacción con cheque. Cuando usemos la
información de su cheque para hacer una transferencia electrónica de fondos, los
fondos pueden ser retirados de su cuenta el mismo día en que recibamos su pago,
y su institución financiera no le devolverá el cheque. Su estado de cuenta también
explica de qué modo se utiliza la información en su cheque.
• Si efectúa un pago por Internet, debe hacerlo a través de nuestro sitio Web, que
aparece en su estado de cuenta. Las horas de corte para los pagos por Internet se
comunicarán en el momento de la transacción.
Si no sigue estas instrucciones, sus pagos podrían no acreditarse hasta cinco días
después de que los recibamos.
Es posible que se retenga parte de su línea de crédito disponible, a nuestro criterio,
hasta que su pago sea aceptado.
PAGOS IRREGULARES. Es posible que aceptemos pagos atrasados, pagos parciales o
pagos que reflejen “pagado por completo” (u otro texto restrictivo), sin perder nuestros
derechos a recibir el pago total. Si usted tiene la intención de reclamar el pago de su
Cuenta por completo con un monto inferior al Saldo Pendiente, nos debe enviar los
pagos a: Wells Fargo Bank, N.A., P.O. Box 14453, Des Moines, IA 50306.
APLICACIÓN DE PAGOS. Aplicamos los montos de pago equivalentes o inferiores al
Pago Mínimo Adeudado a nuestro criterio. Aplicamos todo monto de pago que supere
el Pago Mínimo Adeudado del siguiente modo:
• Primero, a los saldos con términos Sin Interés si Paga el Total durante los dos Ciclos
de Facturación completos inmediatamente anteriores al vencimiento del período
de términos especiales. De lo contrario, a los fines de esta sección solamente, se
considera que estos saldos tienen una Tasa APR del 0%;
• Luego, a los saldos con Tasas APR más altas antes que a los saldos con Tasas APR más
bajas.
Todo pago que exceda el Pago Mínimo Adeudado se aplica en función de los saldos
reflejados en su último estado de cuenta. Registramos los pagos en el Ciclo de
Facturación en que los recibimos.
Otra información
CANCELACIÓN. Podremos cerrar su Cuenta en cualquier momento y por cualquier
motivo. Usted también puede cerrar la Cuenta en cualquier momento comunicándose
con nosotros. Si esto sucede, usted de todos modos debe pagar el saldo adeudado de
acuerdo con los términos y condiciones de este Contrato. Si cerramos la Cuenta, el aviso
podrá ser proporcionado a uno solo de los titulares de la cuenta.
USUARIOS AUTORIZADOS. Si permitimos usuarios autorizados en su Cuenta, usted
puede solicitar Tarjetas adicionales para los usuarios autorizados. Usted es responsable
de todos los cargos (incluidos los intereses y cargos relacionados) efectuados por el
usuario autorizado. Si desea finalizar el privilegio de un usuario autorizado para usar
su Cuenta, antes de que podamos procesar la solicitud, usted debe hacer lo siguiente:
• Recuperar y destruir la Tarjeta de dicha persona. Si no recupera y destruye la Tarjeta,
usted seguirá siendo responsable de cualquier cargo efectuado después de que
nos informe sobre su voluntad de cancelar los privilegios, a menos que nos indique
cancelar todas las Tarjetas y establecer una nueva Cuenta para usted.
• Notificarnos acerca de su solicitud llamando al número de teléfono o escribiendo a
la dirección que aparecen en su estado de cuenta.

de programas (“patrocinadores”). Un patrocinador es un franquiciante, fabricante,
distribuidor de bienes o una asociación de vendedores minoristas. Los patrocinadores
tienen arreglos con nosotros para que estos programas de tarjeta de crédito estén
disponibles para los Comercios asociados con el patrocinador. Las leyes federales o
estatales pueden limitar nuestra capacidad para compartir su información personal
y/o de la Cuenta con compañías no afiliadas a pesar de que usted haya proporcionado
esta autorización. Nosotros cumplimos con estas leyes federales y estatales. Consulte
el Aviso de Privacidad de Wells Fargo Retail Services para obtener más información
acerca de cómo recopilamos, compartimos y protegemos su información, y también
acerca del modo en que usted puede limitar una parte, pero no la totalidad, de la
información que se comparte.
INFORMACIÓN DE CRÉDITO. Usted promete que toda la información que nos dé
en relación con su Cuenta es verdadera y completa. Usted comprende que nosotros
confiamos en esta información para abrir su Cuenta y otorgarle crédito. Usted nos
autoriza a investigar sus registros de crédito, empleo, activos e ingresos, y a verificar
sus referencias de crédito. También nos autoriza a obtener informes de crédito sobre
su persona ocasionalmente.
PRESENTACIÓN DE INFORMACIÓN. Usted acuerda que podemos reportar su
cumplimiento, su estatus y su historial conforme a este Contrato a agencias de informes
de crédito del consumidor. Si usted solicita Tarjetas adicionales en su Cuenta para
terceros, comprende que podemos brindar información de la Cuenta en su nombre,
así como en nombre de dichos titulares de tarjeta adicionales. Si usted no cumple con
los términos y condiciones de la Cuenta según se definen en el presente Contrato,
dicha información se proporcionará a las agencias de informes de crédito y podría
generar una referencia negativa en su informe de crédito y en los informes de crédito
de cualquier titular de tarjeta adicional. Usted tiene derecho a disputar la exactitud
de la información que hemos reportado escribiéndonos a Wells Fargo Bank, N.A., P.O.
Box 14517, Des Moines, IA 50306, y describiendo la información específica que sea
incorrecta o esté en disputa y el motivo de cualquier disputa con la documentación de
respaldo. En caso de que exista información que usted considere que está relacionada
con un robo de identidad, deberá proporcionarnos un informe de robo de identidad.
CESIÓN. Tenemos el derecho de ceder su Cuenta a otro acreedor. El otro acreedor
tiene, entonces, todos los derechos que le cedamos. Usted no tiene derecho a ceder
su Cuenta.
DERECHO DE GARANTÍA. Usted nos otorga un derecho de garantía por el precio de
compra en virtud del Código Comercial Uniforme sobre los bienes adquiridos en su
Cuenta. Nosotros retendremos el derecho de garantía por el precio de compra hasta
que dichos bienes se paguen por completo. Usted acuerda ayudarnos a presentar todos
los documentos necesarios para perfeccionar nuestro derecho de garantía.
Términos Especiales
Estos términos se aplican a los Términos Especiales.
TÉRMINOS ESPECIALES. Es posible que le permitamos realizar compras con términos
especiales. Si un Comprobante de Venta indica que se aplican términos especiales, la
compra se regirá por los términos especiales y los términos de este Contrato. Usted
acepta los términos especiales al efectuar la compra. El Comprobante de Venta indicará
la duración del período de términos especiales, si lo hubiera. Las distintas compras con
los mismos términos especiales podrían incluirse en el saldo de los términos especiales
similares. Si se combinan saldos con términos especiales, el pago de ese saldo podría
aumentar. Si un saldo no se paga por completo antes del final del período Sin Interés o
del período Sin Interés si Paga el Total, el saldo (y los intereses diferidos) se transferirán
a su saldo regular.
TÉRMINOS ESPECIALES DE INTERÉS. Un Comprobante de Venta podría indicar que
se aplican uno o más de los siguientes términos especiales de interés. A excepción de
los saldos Sin Interés, usaremos el mismo método para calcular los intereses que se
describe antes en la sección Cómo calculamos los intereses: método del saldo diario
promedio (incluidas compras nuevas).
• Sin Interés. Esto significa que no se cobran intereses sobre el saldo de la compra hasta
el final del período de términos especiales. Usted puede evitar los intereses sobre el
saldo pagándolo por completo antes del final del período de términos especiales.
• Sin Interés si Paga el Total. Esto significa que calculamos los intereses sobre el saldo de
compras. Este monto se denomina cargo por intereses diferidos. El cargo por intereses
diferidos no se sumará al saldo a menos que usted no pague el saldo total a más tardar
al final del período de los términos especiales. Usted puede evitar los intereses sobre
el saldo pagándolo por completo antes del final del período de términos especiales.
Se le puede ofrecer la siguiente promoción de términos especiales Sin Interés si
Paga el Total:
Sin Interés si
Paga el Total
con pagos
mensuales

Si el saldo de la compra no se paga por completo en el
transcurso del período de términos especiales, se cobrarán
intereses a su Cuenta desde la fecha de la compra a una tasa
del 28.99%. Esta promoción de términos especiales puede
ofrecerse durante períodos de 6 a 18 meses. Esta promoción de
términos especiales se identificará en su estado de cuenta como
“NO INT IF PD IN FULL” (“S/INT SI PAGA TOTAL”). La Fecha de
Finalización de los Términos Especiales revelará la duración de los
términos especiales.

• Tasa Especial. Esto significa que la Tasa APR que se indica en el Comprobante de Venta
se usará para calcular los intereses sobre el saldo de compras. Una Tasa APR especial
del 0% puede anunciarse como una promoción de términos especiales “sin interés”.
TÉRMINOS ESPECIALES DE PAGO. Un Comprobante de Venta podría indicar que se
aplican uno o más de los siguientes términos especiales de pago.
• Pago Total/”Pagos Equivalentes”. Esto significa que el pago es la cantidad requerida
para pagar por completo el saldo inicial de la compra que aparece en su estado de
cuenta durante el período de términos especiales. Debido al redondeo, el pago final
podría ser menor que los otros pagos.
• Pagos Personalizados. Esto significa que el pago es una cantidad fija de dólares o una
fracción o un porcentaje del saldo más alto de este tipo en cualquier fecha de cierre
del estado de cuenta. El pago no cambiará a menos que, en una fecha de cierre de
un estado de cuenta futuro, el saldo aumente por encima del saldo más alto.
Certificación de intérprete
CERTIFICACIÓN DE INTÉRPRETE. ESTA CERTIFICACIÓN SE APLICA SI USTED
ELIGIÓ CONVERSAR CON NOSOTROS O CON EL COMERCIO SOBRE LOS TÉRMINOS Y
CONDICIONES DE SU CUENTA EN ESPAÑOL, CHINO, COREANO, VIETNAMITA O TAGALO.
Al firmar la solicitud de tarjeta de crédito, utilizar o aceptar de otro modo la Tarjeta o
la Cuenta relacionada que se le haya otorgado, usted certifica a Wells Fargo Bank, N.A.
(nosotros) que: (1) Usted ha recibido y analizado este Contrato con su intérprete, y que
usted y su intérprete han tenido la oportunidad de analizar y negociar con nosotros o
con el Comercio los términos y condiciones contenidos en estos documentos adjuntos;
(2) Su intérprete tiene por lo menos 18 años y habla con fluidez en inglés y en el idioma
en el que usted haya elegido analizar con nosotros o con el Comercio los términos y
condiciones de su Cuenta, y no es un empleado ni ofrece sus servicios a través del
Comercio; (3) Usted entiende y acepta los términos y condiciones contenidos en estos
documentos adjuntos tal como se encuentran redactados.
INTERPRETER CERTIFICATION. THIS CERTIFICATION APPLIES IF YOU CHOSE TO
DISCUSS WITH US OR THE MERCHANT THE TERMS AND CONDITIONS OF YOUR
ACCOUNT IN SPANISH, CHINESE, KOREAN, VIETNAMESE, OR TAGALOG. By signing
the credit card application, using or otherwise accepting the Card or related Account
issued to you, you certify to Wells Fargo Bank, N.A. (us) that: (1) You have received and
discussed this Agreement with your interpreter and that you and your interpreter have
been given an opportunity to discuss and negotiate with us or the Merchant the terms
and conditions contained in these enclosed documents; (2) Your interpreter is at least
18 years old and is fluent both in English and in the language in which you chose to
discuss with us or the Merchant the terms and conditions of your Account, and is not
employed by or made available through the Merchant; (3) You understand and agree
to the terms and conditions contained in these enclosed documents as written.
傳譯員確認書 。 如果您選擇用中文和我們或商家討論有關您的帳戶的條款和條
件，本確認書適用。 如果您簽署信用卡申請書、使用或以其他方式接受富國銀
行（Wells Fargo Bank, N.A.，「我們」）核發給您的卡或相關帳戶，您即向我們確
認：(1) 您已經收到並與您的傳譯員討論過本協議，而且您及您的傳譯員已有機會
與我們或商家討論、協商本文件中包含的條款及條件。(2) 您的傳譯員至少年滿18
歲，並能夠流利使用英文和中文（您選擇用中文與我們或商家討論您帳戶的條款
及條件），且該傳譯員並非商家僱員，亦非經由商家安排。(3) 您理解並同意本文
件中包含的現有書面條款與條件。
통역사 인증. 귀하의 계좌 이용약관에 대해 저희 또는 가맹점과 한국어로 논의할
것을 선택하셨다면 이 인증이 적용될 것입니다. 카드 신청서에 서명하거나,
귀하에게 발행된 카드 혹은 관련 계좌를 사용하거나 수락함으로써 귀하는
Wells Fargo Bank, N.A. (저희)에 다음에 명시된 사항을 보증하시게 됩니다.
(1) 귀하는 귀하의 통역사와 함께 이 동의서를 받고 검토하였으며, 귀하와 귀하의
통역사에게 이 동봉된 서류들의 약정에 대해 저희 또는 가맹점과 논의하고 검토할
수 있는 기회를 드렸습니다. (2) 귀하의 통역사는 18 세 이상이며, 영어와 귀하가
저희 또는 가맹점과 귀하의 이용약관에 대해 논의할 언어로 선택한 한국어에 모두
능통하며, 가맹점에서 또는 가맹점을 통해 고용하지 않았습니다. (3) 귀하는 이
동봉된 서류들에 기재된 이용약관을 이해하며 그 내용에 동의합니다.
CHỨNG NHẬN THÔNG DỊCH VIÊN. SỰ CHỨNG NHẬN NÀY ÁP DỤNG NẾU
QUÝ VỊ ĐÃ QUYẾT ĐỊNH BÀN THẢO VỚI CHÚNG TÔI HAY NGƯỜI BÁN HÀNG
VỀ CÁC ĐIỀU KIỆN VÀ ĐIỀU KHOẢN CỦA TRƯƠNG MỤC BẰNG TIẾNG VIỆT.
Khi ký tên vào đơn xin thẻ tín dụng hoặc sử dụng hay chấp thuận Thẻ hoặc Trương Mục
liên quan được cấp cho quý vị, quý vị chứng nhận với Wells Fargo Bank, N.A. (chúng
tôi) rằng: (1) Quý vị đã nhận được và bàn thảo bản Thỏa Thuận này với thông dịch viên
của quý vị, và quý vị và người này đã có cơ hội bàn thảo và thương lượng với chúng tôi
hay Người Bán Hàng về các điều khoản và điều kiện trong những văn kiện đính kèm này.
(2) Thông dịch viên của quý vị đã ít nhất 18 tuổi và thông thạo cả Anh ngữ và ngôn ngữ
mà quý vị chọn để thảo luận với chúng tôi hay Người Bán Hàng về các điều khoản và
điều kiện của Trương Mục của quý vị. Thông dịch viên cũng không phải là nhân viên của
Người Bán Hàng hoặc do Người Bán Hàng cung cấp cho quý vị. (3) Quý vị hiểu và đồng
ý với các điều khoản và điều kiện chứa trong những văn kiện đính kèm này.
SERTIPIKO NG TAGAPAGSALING-WIKA. ANG KATIBAYANG ITO AY MALALAPAT KAPAG
NAGPASIYA KAYONG MAKIPAG-USAP SA AMIN O SA MANGANGALAKAL UKOL SA MGA
TAKDA AT KONDISYON NG INYONG ACCOUNT SA TAGALOG. Sa pagpirma ng aplikasyon
para sa credit card, paggamit o kaya’y sa pagtanggap ng Card o kaugnay na Account
na ibinigay sa inyo, pinapatunayan ninyo sa Wells Fargo Bank, N.A. (kami) na: (1)
Natanggap at napag-usapan ninyo ng inyong tagapagsaling-wika ang Kasunduang ito
at kayo ng inyong tagapagsaling-wika ay nabigyan ng pagkakataon na makipag-usap

4 de 5

6102OA-S PLFX (0121)

at makipagkasundo sa amin o sa Mangangalakal tungkol sa mga takda at kondisyon
na nilalaman ng mga nakalakip na dokumentong ito; (2) Ang inyong tagapagsalingwika ay hindi kukulangin sa 18 taong gulang at matatas sa Ingles at wikang Tagalog na
pinili ninyo upang makipag-usap sa amin o sa Mangangalakal tungkol sa mga takda
at kondisyon ng inyong Account, at hindi siya tauhan ng Mangangalakal o nakuha sa
pamamagitan ng Mangangalakal; (3) Naiintindihan ninyo at sumasang-ayon kayo sa
mga takda at kondisyon na nilalaman ng mga nakalakip na dokumentong ito.
Avisos
AVISO SOBRE LA MILITARY LENDING ACT (LEY DE PRÉSTAMOS PARA MILITARES): La
ley federal brinda protecciones importantes para los miembros de las Fuerzas Armadas
y sus dependientes en relación con las extensiones de crédito al consumidor. En
general, los costos del crédito al consumidor para un miembro de las Fuerzas Armadas
y su cónyuge o dependiente no pueden exceder una tasa porcentual anual del 36 por
ciento. Esta tasa debe incluir, según corresponda a la cuenta o transacción de crédito:
el costo asociado a las primas del seguro de crédito, los cargos por productos auxiliares
vendidos en relación con la transacción de crédito, cualquier cuota de solicitud cobrada
(a excepción de determinadas cuotas de solicitud para cuentas o transacciones de
crédito específicas), y cualquier cargo por participación que se cobre (a excepción de
determinados cargos por participación para una cuenta de tarjeta de crédito). Tenga en
cuenta lo siguiente: NO se aplican primas del seguro de crédito, cargos por productos
auxiliares ni cuotas de solicitud con esta Cuenta.
Puede comunicarse con nosotros al 1-800-338-3273 (marque 9 para recibir atención
en español) para obtener información sobre la Tasa Porcentual Anual para Militares y
una descripción de su obligación de pago.
El Acuerdo de Arbitraje no se aplica en su caso si usted está cubierto por la Ley de
Préstamos para Militares ni las disposiciones de renuncia a los derechos de presentar
recursos legales en virtud de cualquier ley estatal o federal en la medida requerida por
la Ley de Préstamos para Militares.
EN CALIFORNIA: Un solicitante casado puede solicitar una cuenta separada. Después
de la aprobación de crédito, cada solicitante tendrá el derecho de usar esta Cuenta hasta
los límites establecidos por nosotros, y podrá ser responsable por todos los montos
otorgados en virtud de esta Cuenta a cualquier solicitante conjunto.
EN NEW JERSEY: Ciertas disposiciones de este Contrato están sujetas a la ley
aplicable. Como resultado, podrían ser nulas, no ejecutables o inaplicables en algunas
jurisdicciones. Sin embargo, ninguna de estas disposiciones es nula, no ejecutable o
inaplicable en Nueva Jersey.
EN NEW YORK, RHODE ISLAND y VERMONT: Se podrá solicitar un informe del
consumidor en relación con esta solicitud o cualquier actualización, renovación o
extensión de cualquier crédito otorgado como resultado de esta solicitud. Si usted lo
solicita, se le informará si se obtuvo un informe y, en ese caso, le daremos el nombre
y la dirección de la agencia de informes de crédito del consumidor. Usted acepta que
obtengamos dichos informes al firmar o presentar de otro modo una solicitud de
crédito.
EN OHIO: Las leyes de Ohio contra la discriminación exigen que todos los acreedores
pongan el crédito a disposición de todos los clientes que demuestren la debida
solvencia en forma equitativa; y que las agencias de informes de crédito mantengan
por separado los historiales de crédito de cada individuo, si así se lo solicita. La Ohio Civil
Rights Commission (Comisión de Derechos Civiles de Ohio) administra el cumplimiento
de esta ley.
EN WISCONSIN: Si usted está presentando una solicitud en forma individual o conjunta
con una persona que no sea su cónyuge, comuníquese con nosotros de inmediato al:
1-855-412-2787 (diga español para recibir atención en su idioma) y proporciónenos
el nombre y la dirección de su cónyuge. La ley nos exige que le informemos a su
cónyuge que usted ha abierto una cuenta con nosotros. Además, tenga en cuenta
que ninguna disposición de un convenio de bienes conyugales (incluido un Acuerdo
Reglamentario de Propiedad Individual conforme a la Sección 766.587 de los Estatutos
de Wisconsin), una declaración unilateral que clasifique los ingresos provenientes de
un bien separado conforme a la Sección 766.59 o un decreto de un tribunal conforme
a la Sección 766.70 afectará negativamente al acreedor, a menos que éste haya recibido
una copia del documento antes de la transacción de crédito o tenga conocimiento de
sus disposiciones adversas en el momento en que se incurra en la obligación.
Sus derechos en relación con la facturación: Conserve este documento para uso
futuro
Este aviso le informa sobre sus derechos y nuestras responsabilidades en virtud de la
Fair Credit Billing Act (Ley sobre Facturación de Crédito Equitativa).
Qué hacer si encuentra un error en su estado de cuenta
Si cree que hay un error en su estado de cuenta, escríbanos a:
Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306

En su carta, proporciónenos la siguiente información:
• Información de la cuenta: su nombre y número de cuenta.
• Monto en dólares: el monto en dólares del presunto error.
• Descripción del problema: si cree que hay un error en su cuenta, describa lo que
cree que está mal y por qué cree que es un error.
Debe comunicarse con nosotros:
• En el transcurso de 60 días después de que haya aparecido el error en su estado
de cuenta.
• Por lo menos 3 días laborables antes de que se programe un pago automatizado si
desea suspender un pago respecto del monto que cree que es erróneo.
Debe notificarnos por escrito sobre cualquier posible error. Puede llamarnos, pero si lo
hace, no estamos obligados a investigar ningún posible error y es posible que usted
tenga que pagar el monto en cuestión.
Qué sucederá después de que recibamos su carta
En cuanto recibamos su carta, tendremos que tomar dos medidas:
1. En el transcurso de los 30 días posteriores a la recepción de su carta, debemos
informarle que la hemos recibido. También le informaremos si ya hemos corregido
el error.
2. En el transcurso de los 90 días posteriores a la recepción de su carta, debemos
corregir el error o explicarle por qué consideramos que la cuenta es correcta.
Mientras investigamos si ha habido un error o no:
• No podemos intentar cobrar el monto en cuestión ni reportar que usted se
encuentra en mora respecto de ese monto.
• El cargo en cuestión podría permanecer en su estado de cuenta, y nosotros
podríamos seguir cobrándole intereses sobre ese monto.
• Aunque no tenga que pagar el monto en cuestión, usted es responsable del
monto restante de su saldo.
• Podemos aplicar cualquier monto impago en función de su límite de crédito.
Después de finalizar nuestra investigación, sucederá alguno de estos dos hechos
• Si cometimos un error: Usted no tendrá que pagar el monto en cuestión ni los
intereses u otros cargos en relación con ese monto.
• Si no consideramos que haya habido un error: Usted tendrá que pagar el monto
en cuestión, junto con los intereses y cargos aplicables. Le enviaremos una
declaración del monto adeudado por usted y la fecha en que vence el pago.
Entonces, podríamos reportar que usted se encuentra en mora si no paga el
monto que consideramos que adeuda.
Si recibe nuestra explicación, pero sigue considerando que la cuenta es incorrecta,
debe escribirnos en el transcurso de 10 días e indicarnos que sigue negándose a
pagar. Si lo hace, no podremos reportar que usted se encuentra en mora sin reportar
también que usted está cuestionando nuestra cuenta. Debemos decirle el nombre
de cualquier tercero a quien le hayamos reportado que usted se encuentra en mora,
y debemos informarles a esas organizaciones cuando la cuestión haya sido resuelta
entre nosotros.
Si no cumplimos con todas las reglas arriba mencionadas, no tendrá que pagar los
primeros $50 del monto que cuestione, incluso si su cuenta es correcta.
Sus derechos si no está satisfecho con sus compras con tarjeta de crédito
Si no está satisfecho con los bienes o servicios que ha comprado con su tarjeta de
crédito y ha intentado corregir de buena fe el problema con el comercio, usted puede
tener derecho a no pagar la cantidad restante adeudada de la compra.
Para ejercer este derecho, todos los siguientes enunciados deben ser ciertos:
1. La compra debe haber sido realizada en su estado de residencia o dentro de
las 100 millas de su dirección postal actual, y el precio de compra debe haber
sido superior a $50. (Nota: no se aplican estos requisitos si su compra se basó
en un anuncio publicitario que le enviamos por correo, o si somos dueños de la
compañía que le vendió los bienes o servicios).
2. Usted debe haber utilizado su tarjeta de crédito para la compra. No califican las
compras realizadas con adelantos en efectivo de un cajero automático (ATM) ni
con un cheque con acceso a su Cuenta de Tarjeta de Crédito.
3. No debe haber pagado todavía la compra en su totalidad.
Si se cumplen todos los criterios arriba mencionados y aun así no está satisfecho con
la compra, comuníquese con nosotros por escrito a:
Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306
Mientras investigamos, se aplican las mismas reglas para el monto en disputa indicadas
arriba. Después de finalizar nuestra investigación, le comunicaremos nuestra decisión.
En ese momento, si pensamos que usted adeuda un monto y no lo paga, podemos
reportar que usted se encuentra en mora.

5 de 5

6102OA-S PLFX (0121)

